                  CLOSEOUT MEMORANDUM FOR MOO050021
On 5 May 2000, we received concerns from a complainant1that an NSF program officer,
the s ~ b j e c t ,had
                    ~ violated applicable conflict of interests (COI) rules. The subject
approved two separate continuing grant increments (CGIs) for two separate NSF award^,^
each with different PIS. It was alleged that the subject had a COI with one or more of the
PIS on each award at the time he approved the CGIs and, therefore, should have recused
himself from both decisions.

According to federal criminal law (18 U.S.C. § 208(a)):

         (a) Except [if a waiver is obtained], whoever, being an . . . employee of the
         executive branch of the United States Government . . . ,including a special
         Government employee, participates personally and substantially as a
         Government . . .employee, through decision, approval, disapproval, . . . or
         otherwise, in a[n] . . .application .. . or other particular matter in which, to
         his knowledge, he .. . has a financial interest - Shall be subject to the
         penalties set forth in section 216 of this title.

In addition, an NSF supplemental COI regulation (5 C.F.R. $ 5301.102(a)(3)(ii)(C))
prohibits .employee involvement with a matter involving a person with whom the
employee has "Collaborated on a project, book, article, report, or paper within the last 48
months."

We determined that the subject was employed at NSF from
                     as a special government employee in a temporary position under the
Intergovernmental Personnel Act. The subject had recommended initial funding for both
awards in 1997. We found no evidence that the subject had a COI with any of the PIS at
the time he first recommended funding for these awards. The progress reports for the two
awards were also signed by the subject, recommending that the CGIs be awarded-
however, the content of the progress reports showed that by that time the subject was
actively involved in the preparation of a paper4 with one of the PIS on each award.' The
subject did not list the paper or its co-authors in the yearly COI statements required by his




 active collaborators as well as co-authors on this same paper (in progress).


                                                 Page 1 of 2                          MOO-2 1
                   CLOSEOUT NIEMORANDUM FOR MOO050021

    d i v i s i ~ n .The
                     ~ subject told us that he had begun working on the paper a few months prior
    to his signing the progress reports. The subject said that he gained no financial benefit
    from either award, and we found no evidence to the contrary.

    Because the subject did not receive any financial benefit from either of the awards, his
    actions did not violate the federal criminal COI statute. While the subject clearly violated
    NSF's supplemental COI regulation, because he was no longer employed by the federal
    government NSF's recourse was limited. Accordingly, we wrote a letter to the subject,
    admonishing him to take seriously COI policies wherever he worked in the future. We
    discussed this matter with NSF's designated agency ethics oficia17 (DAEO), who had
    already reviewed this matter independently. We shared what we learned and provided
    him with a wpy of our letter to the subject. The DAEO said that, given what our offices
    had learned and done, he was satisfied that no further action was necessary.

    This case is closed and no further action will be taken.

    c: Investigations, IG




We reviewed the subject's 1997 and 1998 COI statements.
l          l              lin t    h     e      t   i     s NSF'S designated agency ethics oficial.


                                          Page 2 of 2
